     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General


                                                                          Office of Audit Services
October 20, 2011                                                          Jacob Javits Federal Building
                                                                          26 Federal Plaza, Room 3900
                                                                          New York, NY 10278



Report Number: A-02-11-02002

Jesús F. Méndez-Rodríguez, C.P.A.
Secretary of the Treasury
Puerto Rico Treasury Department
P.O. Box 9024140
San Juan, PR 00902-4140

Dear Mr. Méndez-Rodríguez:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Puerto Rico Treasury Department Expired
Uncashed Checks. We will forward a copy of this report to the HHS action official noted below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-02-11-02002 in all correspondence.

                                             Sincerely,



                                             /James P. Edert/
                                             Regional Inspector General
                                               for Audit Services


Enclosure


HHS Action Official:

Ms. Sheila Conley
Deputy Assistant Secretary for Finance
OS/ASFR/Office of Finance
U.S. Department of Health and Human Services
Room 549D, Hubert H. Humphrey Building
200 Independence Avenue, S.W.
Washington, D.C. 20201
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF PUERTO RICO
      TREASURY DEPARTMENT
    EXPIRED UNCASHED CHECKS




                       Daniel R. Levinson
                        Inspector General

                         October 2011
                         A-02-11-02002
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      INTRODUCTION

BACKGROUND

Puerto Rico Treasury Department

The Commonwealth of Puerto Rico’s accounting system is administered by the Puerto Rico
Treasury Department. The Treasury Department is responsible for controlling and accounting
for commonwealth and Federal funds, issuing vendor checks on behalf of the commonwealth,
and issuing payroll checks to commonwealth employees.

Pursuant to Office of Management and Budget Circular A-87, Cost Principles for State, Local,
and Indian Tribal Governments (2 CFR pt. 225), to be allowable under a Federal award, costs
must be net of all applicable credits. Applicable credits include checks, representing costs
previously charged to Federal programs, which have not been cashed and are considered expired.
Pursuant to section 87A of the Puerto Rico Political Code of 1902, commonwealth checks which
have not been cashed within 180 days from the date of issuance are considered expired.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Treasury Department ensured that the Federal
Government was credited for its share of expired uncashed checks.

Scope

We reviewed the Treasury Department’s policies, procedures, and controls over expired
uncashed checks originally charged to Federal programs during the period July 1, 2003, through
June 30, 2009.

We conducted fieldwork at the Treasury Department’s office in San Juan, Puerto Rico from
January through August 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal and commonwealth regulations;

   •    reviewed Treasury Department policies and procedures for canceling expired uncashed
        checks and crediting Federal programs;

   •    obtained from the Treasury Department a listing of 486 expired uncashed checks, totaling
        $1,504,270, originally charged to Federal programs during the period July 1, 2003,
        through June 30, 2009; and

                                               1
   •   judgmentally sampled 40 expired uncashed checks, totaling $145,235, to determine
       whether the Federal Government was credited for its share.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The Treasury Department established and implemented procedures for canceling expired
uncashed checks and crediting the Federal portion of these checks to the Federal program from
which the checks were originally issued. As a result, this report contains no recommendations.




                                               2
